Case: 20-3205

Document: 11-2

Filed: 06/29/2020

No. 20-3205

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DAVID BOYLE,
Petitioner-Appellant,
v.
TIM SHOOP, Warden,
Respondent-Appellee.

(2 of 6)

Page: 1

)
)
)
)
)
)
)
)
)
)

Jun 29, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: MURPHY, Circuit Judge.

David Boyle, a pro se Ohio prisoner, appeals the judgment of the district court denying his
28 U.S.C. § 2254 petition for a writ of habeas corpus. Boyle has filed an application for a
certificate of appealability (“COA”) in this court. See Fed. R. App. P. 22(b)(1). He also moves to
proceed in forma pauperis on appeal. See Fed. R. App. P. 24(a)(5).
In 2013, Boyle was charged with sixteen counts of raping his daughter. State v. Boyle, No.
2013-CA-43, 2014 WL 1338699 (Ohio Ct. App. Mar. 28, 2014). Boyle subsequently agreed to
plead guilty to six counts in exchange for the dismissal of the ten remaining counts. Id. The trial
court imposed a term of imprisonment of ten years on each of the six counts, with the sentences
for four counts to be served consecutively and the sentences for the remaining two to be served
concurrently with the other counts, resulting in a total term of forty years in prison. Id.
Boyle appealed. The Ohio Court of Appeals allowed counsel to withdraw pursuant to
Anders v. California, 386 U.S. 738 (1967), and affirmed the trial court’s judgment on March 28,
2014. Boyle, 2014 WL 1338699, at *3. Boyle did not appeal to the Ohio Supreme Court.
In 2018, Boyle filed a “Motion to Dismiss Defective Indictment” in the trial court, asserting
that the indictment violated his right to due process because it contained undifferentiated counts
of rape that failed to sufficiently describe the charges and prevented him from preparing a defense.

Case: 20-3205

Document: 11-2

Filed: 06/29/2020

Page: 2

No. 20-3205
-2The trial court denied the motion, finding that Boyle waived any error in the indictment by pleading
guilty. The trial court also noted that, under Ohio law, the sufficiency of an indictment must be
raised on direct appeal and not in a collateral attack. Because Boyle did not raise the claim on
direct appeal, it was also barred by res judicata. The Ohio Court of Appeals affirmed. State v.
Boyle, No. 2018-CA-12, 2018 WL 3954272 (Ohio Ct. App. Aug. 17, 2018). On November 7,
2018, the Ohio Supreme Court declined to review Boyle’s appeal. State v. Boyle, 111 N.E.3d 21
(Ohio 2018).
Boyle filed his habeas petition in the district court on October 1, 2019, alleging that his
indictment was defective due to multiplicity. A magistrate judge reviewed Boyle’s petition and
recommended that it be dismissed under Rule 4 of the Rules Governing § 2254 Cases because it
was barred by the one-year habeas statute of limitations. Boyle filed objections, asserting that his
petition was timely because he was not challenging his 2014 appeal, but rather the denied motion
to dismiss the indictment that became final in 2018.

The district court recommitted these

objections to the magistrate judge, who issued a supplemental report that again recommended
dismissal because Boyle’s collateral attack on his indictment—filed after the one-year statute of
limitations for federal habeas petitions had expired—did not re-start the limitations period.
Boyle filed objections to the supplemental report and recommendation, too, arguing that
because the Ohio courts “allowed the full exercise of [briefing] and rebuttal from both sides,” it
therefore “re-opened [Boyle]’s ability to litigate his claim[.]” He asserted that his case was like
Jimenez v. Quarterman, 555 U.S. 113 (2009), ill which the state courts had allowed the defendant
to file a delayed direct appeal and the Supreme Court held that this reopening of Jimenez’s direct
appeal had “reset” the habeas limitations period.
The district court again recommitted these objections to the magistrate judge, who issued
a second supplemental report and recommendation. The magistrate judge explained that Boyle’s
unsuccessful motion to dismiss the indictment did not reopen his judgment of conviction the way
that Jimenez’s successful motion for a delayed direct appeal did. So the magistrate judge again
recommended that Boyle’s petition be dismissed as untimely.

(3 of 6)

Case: 20-3205

Document: 11-2

Filed: 06/29/2020

Page: 4

No. 20-3205
-4Because he did not do so, the Court of Appeals judgment became final forty-five days later on
May 12, 2014. The one-year habeas limitations period then began to run and expired one year
later on May 12, 2015. See 28 U.S.C. § 2244(d)(1)(A). Boyle’s petition, filed in October 2019,
was filed long after the limitations period expired and was thus untimely. Boyle’s 2018 motion to
dismiss the indictment does not change things, as it was filed after the one-year limitations period
had expired. Once that period has expired, state collateral-review proceedings cannot “restart the
clock.” See Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003) (citation omitted).
In his COA application, Boyle asserts the decision of the Ohio courts to hear his motion to
dismiss the indictment was the legal equivalent of the Texas state court allowing an out-of-time
direct appeal in Jimenez. In Jimenez, the Texas courts allowed Jimenez to file an out-of-time
appeal but ultimately affirmed his conviction and sentence and denied him post-conviction relief.
555 U.S. at 116. Jimenez then filed a § 2254 petition, which the district court determined was
untimely under § 2244(d)(1)(A) because it was not filed within one year of the time when his
original appeal was dismissed by the state courts. Id. at 116-18. The Supreme Court ultimately
reversed, finding that Jimenez’s direct review did not become final until his delayed appeal was
resolved and the time for seeking certiorari review in the Supreme Court expired because the order
granting the out-of-time appeal restored the pendency of his direct appeal. Id. at 120-21.
The Supreme Court made clear, however, that its holding was “narrow” and applied only
“where a state court grants a criminal defendant the right to file an out-of-time direct appeal during
state collateral review, but before the defendant has first sought federal habeas relief^.]” Id. at 121.
These circumstances are not present in Boyle’s case; Boyle was not granted leave to file an outof-time direct appeal. Instead, Boyle can point to only the state collateral-review proceedings that
he initiated years after his one-year habeas limitations period had expired. As a result, reasonable
jurists would not debate that Boyle’s petition is time-barred.

Further, although the habeas

limitations period is subject to equitable tolling, Holland v. Florida, 560 U.S. 631, 649 (2010),
Boyle has not argued that he is entitled to equitable tolling. Nor has he made an assertion of actual
innocence, which can in some circumstances justify equitable tolling. See Souter v. Jones, 395

(5 of 6)

Case: 20-3205

Document: 11-2

Filed: 06/29/2020

Page: 5

(6 of 6)

No. 20-3205
-5 F.3d 577, 588 (6th Cir. 2005); see also McQuiggin v. Perkins, 569 U.S. 383, 401 (2013). As a
result, his claims do not deserve encouragement to proceed further.
Boyle’s application for a COA is DENIED. His motion to proceed in forma pauperis on
appeal is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

S-

Case: 3:19-cv-00312-TMR-MRM Doc #: 2 Filed: 10/02/19 Page: 1 of 4 PAGEID #: 28

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
DIVISION AT DAYTON
DAVID BOYLE,
Case No. 3:19-cv-312

Petitioner,

District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

- vs Warden, Chillicothe Correctional
Institution,
Respondent.

REPORT AND RECOMMENDATIONS

This is a habeas corpus case brought pro se by petitioner David Boyle to obtain relief from
his conviction for six counts of rape in the Common Pleas Court of Greene County and his
consequent sentence of forty years imprisonment. The case has been assigned to District Judge
Thomas M. Rose and referred to the undersigned by virtue of General Order Day 13-01.
Under Rule 4 of the Rules Governing § 2254 Cases, the clerk must promptly forward the
petition to a judge under the court’s assignment procedure, and the judge must promptly examine
it. If it plainly appears from the petition and any attached exhibits that the petitioner is not entitled
to relief in the district court, the judge must dismiss the petition and direct the clerk to notify the
petitioner.
The Petition avers that Boyle was sentenced on August 8, 2013 (ECF No. 1, PagelD 1, f
2(a)). He then appealed to the Ohio Court of Appeals for the Second District which affirmed his
conviction and sentence. State v. Boyle, 2014-Ohio-1271 (2nd Dist. Mar. 28, 2014). Boyle did not
1

Case: 3:19-cv-00312-TMR-MRM Doc #: 2 Filed: 10/02/19 Page: 2 of 4 PAGEID #: 29

appeal to the Supreme Court of Ohio (Petition, ECF No. 1, 2, ]f 9(g)). On January 24, 2018, Boyle
filed a motion to dismiss the indictment on grounds of multiplicity. Id. at If 11 which was denied.
He claims to have subsequent matters pending in both the Green County Court of Common Pleas
and the Second District Court of Appeals, but does not provide case numbers or any other
description. Id. at If 15, PagelD 12.

Analysis

28 U.S.C. § 2244(d), the habeas corpus statute of limitations, provides:
(1) A 1-year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. The limitation period shall run from the
latest of—
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed, if the
applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or
claims presented could have been discovered through the
exercise of due diligence.
(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period
of limitation under this subsection.
2

Case: 3:19-cv-00312-TMR-MRM Doc #: 2 Filed: 10/02/19 Page: 3 of 4 PAGEID #: 30

According to his Petition, Boyle’s convictions were affirmed in the Second District Court
of Appeals on March 28,2014. Under the Rules of the Ohio Supreme Court he had forty-five days
from that date or until May 12, 2014, to file in that court. Since he did not do so, his conviction
became final for purposes of § 2244(d) on May 12, 2014, and the statute began to run from that
date, expiring May 13, 2015. According to his Petition, Boyle did nothing before that date to
collaterally attack his conviction and thereby toll the statute of limitations. The statute thus expired
May 13, 2015, and the Petition, filed October 1, 2019, is more than four years too late.
A district court may dismiss a habeas petition sua sponte on limitations grounds when
conducting an initial review under Rule 4 of the Rules Governing § 2254 Cases. Day v.
McDonough, 547 U.S. 198 (2006)(upholding sua sponte raising of defense even after answer
which did not raise it); Scott v. Collins, 286 F.3d 923 (6th Cir. 2002). However, before doing so it
must give the Petitioner notice and an opportunity to respond. Shelton v. United States, 800 F.3d
292 (6th Cir. 2015). This Report is subject to review by District Judge Rose. If Petitioner has any
argument as to why the statute of limitations does not bar his Petition, he must raise it in any
objections to this Report.

Conclusion

Based on the foregoing analysis, it is respectfully recommended that the Petition herein be
dismissed with prejudice as barred by the statute of limitations. Because reasonable jurists would
not disagree with this conclusion, Petitioner should be denied a certificate of appealability and the
Court should certify to the Sixth Circuit that any appeal would be objectively frivolous and

3

Case: 3:19-cv-00312-TMR-MRM Doc #: 2 Filed: 10/02/19 Page: 4 of 4 PAGEID #: 31

therefore should not be permitted to proceed in forma pauperis.

October 1,2019.

s/ MicfiaeC TL Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen days
because this Report is being served by mail. Such objections shall specify the portions of the
Report objected to and shall be accompanied by a memorandum of law in support of the objections.
A party may respond to another party’s objections within fourteen days after being served with a
copy thereof. Failure to make objections in accordance with this procedure may forfeit rights on
appeal. See Thomas v. Am, 474 U.S. 140, 153-55 (1985); United States v. Walters, 638 F.2d 947,
949-50 (6th Cir. 1981).

4

Case: 3:19-cv-00312-TMR-MRM Doc #: 10 Filed: 01/14/20 Page: 1 of 2 PAGEID #: 68

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON
David Boyle,
Petitioner,
Case No. 3:19-cv-312
Judge Thomas M. Rose

v.
Warden, Chilicothe Correctional Institution,
Respondent.

DECISION AND ENTRY ADOPTING SECOND SUPPLEMENTAL
REPORT AND RECOMMENDATIONS OF UNITED STATES
MAGISTRATE JUDGE MERZ (ECF 8), SUPPLEMENTAL REPORT AND
5),
AND
REPORT
AND
RECOMMENDATIONS
(ECF
RECOMMENDATIONS (ECF 2), AND OVERRULING PETITIONER’S
OBJECTIONS TO SECOND SUPPLEMENTAL REPORT AND
RECOMMENDATIONS (ECF 9), PETITIONERS OBJECTIONS TO
SUPPLEMENTAL REPORT AND RECOMMENDATIONS (ECF 6), AND
PETITIONER’S OBJECTIONS TO REPORT AND RECOMMENDATIONS
(ECF 3), DENYING PETITION FOR WRIT OF HABEAS CORPUS, (ECF
1), AND TERMINATING THE INSTANT CASE.

Pending before the Court are Petitioner’s Objections to Second Supplemental Report and
Recommendations

(ECF

9),

Petitioner’s

Objections

to

Supplemental

Report

and

Recommendations (ECF 6), and Objection to Magistrate’s Report and Recommendations. (ECF
3).

Magistrate Judge Michael R. Merz’s Report and Recommendations (ECF 2), Supplemental
Report and Recommendations (ECF 5), and Second Supplemental Report and Recommendations
(ECF 8), all recommend dismissing Petitioner’s Petition for Writ of Habeas Corpus, (ECF 1), and

Case: 3:19-cv-00312-TMR-MRM Doc #: 10 Filed: 01/14/20 Page: 2 of 2 PAGEID #: 69

denying permission to proceed in forma pauperis.
As required by 28 U.S.C. § 636(b) and Federal Rule of Civil Procedure 72(b), the Court
has made a de novo review of the record in this case. Upon said review, the Court finds that
Petitioner’s objections, (ECF 3, 6, 9), to the Magistrate Judge’s Report and Recommendations,
(ECF 2, 5, 8), are not well taken and they are hereby OVERRULED. The Magistrate Judge’s
Report and Recommendations, (ECF 2, 5, 8), are ADOPTED.

Wherefore, the Court

DISMISSES the Petition (ECF 1) WITH PREJUDICE. Because reasonable jurists would not
disagree with this conclusion, Petitioner is denied a certificate of appealability and the Court
certifies to the Sixth Circuit that any appeal would be objectively frivolous and therefore Petitioner
should not be permitted to proceed in forma pauperis. The Clerk is ORDERED to terminate the
instant case.
DONE and ORDERED this Tuesday, January 14, 2020.
s/Thomas M. Rose
THOMAS M. ROSE
UNITED STATES DISTRICT JUDGE

